FAIRWINDS Visa Signature®
VARIABLE RATE CREDIT CARD AGREEMENT AND DISCLOSURE

DEFINITIONS:The “Card” means the FAIRWINDS Visa Signature® Credit Card which we issue to you under this agreement, and
includes any device or check used to obtain credit or cash from the account. “Authorized Cardholder” is an individual receiving a
Card, but who has no responsibility for payment of the Account. The words “you”, “your”, and “cardholder” mean each person, jointly
and individually, who holds, signs, retains, uses, or permits others to use or sign a card. The words “our”, “we” and “us” mean FAIRWINDS
Credit Union or any of its assignees. Unless otherwise stated, “Account” means your Card account with us.
You agree to pay all charges (purchases, balance transfers and cash advances) on your account made by you, any Authorized
Cardholder or anyone who you authorize to use your account. Your obligation to pay the amount owed on your account continues
until paid in full even though an agreement, divorce decree, or other court judgment to which we are not a party may direct
someone else to pay the account balance. If more than one person is subject to this agreement, each is individually responsible for
all amounts owed. This means we can enforce this agreement against any of you individually or all of you together.
AGREEMENT: We agree to extend credit to you and advance amounts up to your credit limit. Upon receipt of your Card, you
will immediately sign the back of the Card to ensure proper use. You agree to pay us for credit extended for use of the Card by
you, and Authorized User or any other cardholder, along with all applicable finance charges, fees, and insurance if any apply. You
agree, by signing, using or permitting others to use the Card, to the terms and conditions contained in this agreement, on the
Card, or any charge slip resulting from authorized use of the Card and on any authorized cash advance slip.

1.

2. CREDIT LIMIT AND CASH ADVANCE LIMIT: We will assign a credit limit to your account, and post it on your monthly billing
statement. We may refuse to make an advance or authorize a transaction and/or cancel, change, or restrict your credit limit and
cash advance limit at any time. Each transaction is considered for approval on an individual basis, including those above the
credit limit. We may not approve all transactions.

CHANGE IN TERMS: You agree that we can change the terms of this agreement at any time, as long as we give you written
notice as required by law before the change becomes effective. Use of your account on or after the effective date of any change
will constitute your acceptance of the new terms. Any changes to the agreement may apply to all outstanding indebtedness.
This includes any indebtedness which shall have arisen out of purchases, balance transfers, and cash advances made by you on
the effective date of the changes.
3.

FINANCIAL CONDITION CHANGE: You agree to advise us of any change in your financial condition which may affect your
creditworthiness and to provide us with a current loan application whenever we request one. You understand and agree that
we may terminate your account upon reevaluation of your creditworthiness.

4.

DEFAULT: Your account will be in default if: 1) You so not pay at least the minimum payment when due; 2) You fail to comply
with this or other agreements with us; 3) You die, file for bankruptcy or become insolvent, that is, unable to pay your obligations
when they become due; 4) Something happens that we believe may substantially reduce your ability to repay what you owe. If
your account is in default, we may close it without notice and require you to pay your unpaid balance immediately. We can also
begin to collection activities. You agree to pay all reasonable collection costs, including attorneys’ fees that we incur to collect
amounts you owe.
5.

6. ISSUANCE AND USE OF CARD: Upon receipt of the Card(s) you and all other cardholders will sign the signature panel on
the back of the Card(s). The Card remains our property and may be revoked by us without notice at any time. The Card must
be surrendered to us (or our agent designated to repossess it) upon demand or revocation. If we employ an agent for such
repossession, your account will be charged with any related fee. Either you or we may terminate this Agreement at any time,
but termination by you or us will not affect your obligation to pay the account balance plus any finance and other charges
you owe under this Agreement. You are also responsible for all transactions made to your account after termination, unless the
transactions were unauthorized. If and to the extent permitted by applicable law, we have the right to require you to pay your

Visa Signature Credit Card Agreement

CARD-3581/03232020

M-131513

Continued on page 2 

full account balance at any time after your account is terminated, whether it is terminated by you or us. If this account is jointly
held, either of the joint cardholders may terminate the account at any time by returning all Cards issued under this agreement
to us. Termination by a joint cardholder will not relieve either of the joint cardholders or any other cardholder from liability for
repayment of any obligations arising from the use of the account.
ISSUANCE AND USE OF CHECKS: If we issue you convenience checks, they are processed as cash advances and
accumulate finance charges from the date the check posts to your account. Convenience checks may only be used by the
person whose name is printed on them. We may refuse to issue or reissue, and may also terminate, limit, or modify the use of
the checks without notice to you, and you agree to surrender the checks upon our demand or upon learning of our cancellation
or withdrawal of the checks. All the terms and conditions of this agreement apply to the checks and balance transfers. Only
convenience checks, balance transfers, and other methods authorized by us now and into the future may be used to obtain
funds from this account, and if so authorized by us, your use of a Personal Identification Number (PIN) for such purposes shall
constitute your signature. Paid convenience checks and balance transfer checks become our property and will not be returned
to you. Copies may be provided, if requested, for a nominal fee per item. Should we decline to pay any convenience check or
balance transfer, we shall not be liable for any action we take regarding payment or nonpayment of a check or balance transfer.
You will not date any check later than the date you write it. If you do and the check is presented for payment before its date, we
may return it unpaid.
7.

8. THIRD PARTY DISCLOSURE: We may disclose information about your account in order to advise third parties, such as credit
bureaus or merchants, of the existence or condition of your account, or if you give us written permission, or in order to comply
with a government agency of court orders.

ASSIGNMENT OF ACCOUNT: You agree that we may at any time sell, transfer, or assign your account to another financial
institution.

9.

FINANCE CHARGE: Except during any introductory or promotional period, the FINANCE CHARGE (INTEREST) for
purchases, balance transfers and cash advances will be based upon the Monthly Periodic Rate and corresponding
ANNUAL PERCENTAGE RATE (APR) as set forth in the tabular Disclosure above, the terms of which are incorporated
herein by reference. To avoid incurring an additional FINANCE CHARGE on purchases reflected on your periodic statement
and on any new purchases appearing on your next statement, you must pay the new balance for purchases shown on the
periodic statement on or before the Payment Due Date. The FINANCE CHARGES for a billing cycle are computed by applying
the Monthly Periodic Rate to the average daily balance of (i) purchases, (ii) balance transfers, or (iii) cash advances, as the case
may be, which is determined by dividing the sum of the daily balances during the billing cycle by the number of days in the
cycle. Separate average daily balances are calculated for (i) purchases, (ii) balance transfers, and (iii) cash advances. Each daily
balance for a transaction type is determined by adding to the previous balance for that transaction type any new transactions of
that type posted to your account and subtracting any payments as received and credits posted to your account and applied to
the balance for that type, but excluding any unpaid FINANCE CHARGES. FINANCE CHARGES will begin to accrue on balance
transfers and cash advances, including over-the-counter cash advances, Convenience Checks, and ATMs from the date of the
transaction. Fees are not included in the calculation of the average daily balances. Finance charges will continue to accrue on
your account until what you owe under this agreement is paid in full.

10.

PAYMENTS: You agree to pay at least the minimum payment due on each payment due date. The minimum payment due
and payment due date are shown on each billing statement. The billing statement also explains when the payment must reach
us in order to be considered received as of that date. Payments received after that required time will be credited on the next
business day. Make payments to us in U.S. dollars with 1) a single check drawn on a U.S. bank, 2) money order, or 3) an electronic
payment that can be cleared through the U.S. banking system. You agree purchases and cash advances made in foreign
countries and foreign currencies will be billed to you in U.S. dollars. Your Card account (16-digit) number should always be
written on the bottom left hand corner. All payments will be credited to your account promptly, in most cases as of the day of
receipt and in no case more than 5 business days from the date of receipt. You understand and agree that, except as otherwise
required by applicable law, payments will be applied in the following order (1) finance charge(s), (2) fee(s) (if applicable), (3) the
remaining amount of your payment equal to the minimum payment due to the balances with the lowest APRs, and (4) payment
of the amount in excess of your minimum payment due will be applied to the balances with the highest APRs.

11.

MINIMUM PAYMENT DUE: To calculate the minimum payment due, we begin with any past due amount. We then add any
amount in excess of your credit limit. We also add the largest of the following: (i) the new balance on the billing statement, if it

12.

Visa Signature Credit Card Agreement

CARD-3581/03232020

M-131513

Continued on page 3 

is less than $25; (ii) $25, if the new balance is at least $25; or (iii) 1% of the new balance, plus the amount of your billed interest
charges and any applicable fees. In no event will the minimum payment due exceed the new balance.
ANNUAL FEE: You are responsible for paying the annual fee of $249 every year your account is open or until your account is
closed and paid in full. You monthly billing statement will tell you how to cancel your account and avoid future annual fees.

13.

LATE FEE: If you do not make the total minimum payment due on your monthly statement by the due date listed on your
statement, you may be assessed a late charge of $25, in the case of the first violation, or $35, in the case of any additional
violation during any six consecutive billing cycles; provided, however, the late charge shall in no case exceed the amount of the
required minimum payment due. Any late payment charge you owe us will be added to your account but will not be included
in any finance charge calculation.

14.

RETURN PAYMENT FEE: If a payment is returned, there will be a return payment charge of $25, in the case of the first
violation, or $30, in the case of any additional violation during any six consecutive billing cycles; provided, however, the return
payment charge shall in no case exceed the amount of the required minimum payment due. Any return payment charge you
owe us will be added to your account but will not be included in any finance charge calculation.

15.

CASH ADVANCE FEES: For each cash advance, a fee of 4% will be charged. The minimum cash advance fee is $10. Cash
advance transactions are defined as ATM withdrawals, convenience checks, and cash advances made at any financial institution
branch.

16.

17.

BALANCE TRANSFER FEES: For each balance transfer, a fee of 3% will be charged. The minimum balance transfer fee is $5.

MILITARY LENDING ACT (MLA): Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces
and his or her dependent may not exceed an Annual Percentage Rate of 36 percent. This rate must include, as applicable to the
credit transaction or account: The costs associated with credit insurance premium; fees for ancillary products sold in connection
with the credit transaction; any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a Credit Card account).

18.

LOST OR STOLEN CARD: You are responsible for the possession and use of the Card and must maintain the confidentiality
of the PIN we may assign you. You will notify us if you believe your Card has been lost, stolen or if you have reason to
believe that the Card is being used without your permission immediately. You may notify security by calling 407.277.5045 or
800.443.6887 seven (7) days a week twenty-four (24) hours a day.

19.

ADDITIONAL CARDHOLDERS: You may request us to issue a Card to an individual who has no financial responsibility
under this Agreement. The fee for each Additional Cardholder is $75 per year. You must notify us if you want them to stop using
your account. You agree that you are responsibility for all charges and cash advances made by any Additional Cardholders,
including charges made before the Card is returned, recurring charges, or charges made without the use of the Card initiated by
Additional Cardholders after termination of the Additional Cardholder’s access.
20.

SECURITY INTEREST: If you give us a specific pledge of shares by signing a separate pledge of shares for this
account, your pledged shares will secure your charge account. You pledge as security for the charge account all shares
and dividends and, if any, all deposits and interest in all joint and individual accounts you have with us now or in the
future. Also, any property you give as security will secure all amounts owed under this agreement and all other loans
you have with us now or in the future, except any loan secured by your principle dwelling. Your pledge does not apply
to any Individual Retirement Account or any other account that would lose special tax treatment under state or federal
law if given as security. Property securing other loans you have with us may also secure this agreement.

21.

22. MEMBERSHIP REQUIREMENT: You must be and remain a member in good standing with us to be eligible for continuing
Account and/or Card privileges including future purchases and advances. We may suspend the Account and/or Card privileges,
including closing the Account, if you do not maintain your Membership with us.

FOREIGN TRANSACTIONS: Purchases, Cash Advances, and credits made in foreign currencies will be billed to your Account
in U.S. dollars. The conversion to U.S. dollars will be made in accordance with the Visa® operating regulations for international

23.

Visa Signature Credit Card Agreement

CARD-3581/03232020

M-131513

Continued on page 4 

transactions. The exchange rate between the transaction currency and the billing currency used for processing international
transactions is a rate selected by Visa® from the range of rates available in wholesale currency markets for the applicable
Central Processing Date, which rate may vary from the rate Visa® itself receives, or the government- mandated rate in effect for
the applicable Central Processing Date in each instance. The conversion rate may be different than the rate on the day of the
transaction or date of posting of the Account. When a credit to the Account does not fully offset a charge to the Account due to
changes in the rate, you are responsible for the difference.
ILLEGAL USE: You may use your FAIRWINDS Credit Union credit Card for any transaction permitted by law. You may not
use your Card for any gambling purposes, either legal or illegal. You agree that illegal use and/or use in gambling activities of
this Card will be deemed an action of default and/or breach of contract and such service and/or other related services may
be terminated at our discretion. You further agree, should illegal use occur, to waive the right to sue us for such illegal activity
directly or indirectly related to it. You also agree to indemnify and hold us harmless from any suits or other legal action or
liability, directly or indirectly, resulting from such use.

24.

LIABILITY FOR UNAUTHORIZED USE: You are liable for all authorized use of any Card issued under this agreement
regardless of the credit limit or the party using it. You also may be liable for the unauthorized use of your Card as follows: 1) If
you tell us after learning of the loss or theft of the Card, your liability for unauthorized transactions using the Visa system is Zero;
and 2) For Card transactions through a non-Visa network, Visa Commercial Cards, Visa or Plus ATM, or any ATM transactions, or
to Cards issued outside the United States, (a) if you tell us within two (2) business days after learning of the loss or theft of the
Card, your liability for unauthorized transactions is $50.00; (b) if you do not tell us within two (2) business days; your liability
for unauthorized transactions is $500.00 and (c) if you do not tell us within sixty (60) days after the statement was mailed, you
may not get any money you lost if we can prove that we could have stopped someone from taking the money had you told
us in time. The term “unauthorized” does not include any transaction from which you receive a benefit or any transaction by a
person with actual, implied, or apparent authority to use the Card. We may require you to provide a written statement regarding
claims of unauthorized transactions. If we determine that you have been grossly negligent or fraudulent in the handing of
your account or Card, your liability may increase. These rules do not apply to other electronic transfers. You will not be liable for
unauthorized use that occurs after you notify us orally at 407.277.5045 or 800.443.6887, or in writing to FAIRWINDS Credit Union,
Attn: Payment Services, 3087 N. Alafaya Trail Orlando, FL 32826. You agree to cooperate with us in the recovery of any amounts
advanced based on such unauthorized use.
25.

STATEMENTS AND NOTICES: We will bill you monthly, on a date selected by us, for amounts due under this agreement.
Upon receipt of each periodic statement you should examine it and immediately notify us in writing of any transaction you
believe to be in error to FAIRWINDS Credit Union, Attn: Payment Services, 3087 N. Alafaya Trail Orlando, FL 32826. Statements
and notices will be mailed to you at the most recent address you have given us. You agree to notify us promptly of any change
in your name, address and phone number. Notice sent to any one of you will be considered notice to all of you.

26.

27. MERCHANT REFUSALS AND ADJUSTMENTS: We will have no liability or responsibility if any merchant refuses to honor the
Card. No cash refund will be made to you with respect to any adjustment for goods or services purchased. All adjustments will
be made by credit to your account.

VISA ACCOUNT UPDATER (VAU): VAU is an automatic account information updating service provided by VISA. Your Card is
automatically enrolled in VAU when issued. When your Card expires or is lost or stolen and a new or replacement Card is issued,
VISA may update relevant Card information (card number and expiration date) with participating merchants with which you
have an ongoing payment relationship, such as recurring payments or automatic billing. The VAU service is provided for your
convenience at no cost to you. You may opt-out of the VAU service at any time by contacting us by mail at FAIRWINDS Credit
Union, 3087 N. Alafaya Trail Orlando, FL 32826, or by telephone at 800.443.6887. You acknowledge and agree participation in
VAU does not relieve you of your responsibility to ensure merchants have your correct information on file and your failure to
keep your account information current may result in declined payments. You acknowledge and agree further neither VISA nor
we guarantees that your account updates will be received or recognized by merchants prior to any billing.

28.

CASH REWARDS PROGRAM: You will be entitled to Reward Points as described below. You will earn 5 Reward Points for
each $1 spent when your card is used for purchases in the travel category. You will earn 3 Reward Points for each $1 spent when
your card is used for purchases in the dining at restaurants category. You will receive 2 Reward Points for each $1 dollar spent
in all other categories. Reward Points can only be earned on Qualifying Net Purchases during each billing cycle. “Qualifying Net

29.

Visa Signature Credit Card Agreement

CARD-3581/03232020

M-131513

Continued on page 5 

Purchases” means all authorized credit purchases posted to your Account less (i) any credit purchase refunds, (ii) any credits
for returned purchases, and (iii) any disputed Account items. Merchants who accept Visa credit cards are assigned a merchant
code, which is determined by the merchant or it’s processor in accordance with Visa rules. We group similar merchant codes
into categories for purposes of making rewards offers to you. Please note: we make every effort to include all relevant merchant
codes in our rewards categories. However, even though a merchant or some of the items that it sells may appear to fit within
a rewards category, the merchant may not have a merchant code in that category. When this occurs, purchases with that
merchant will not qualify for rewards offers on purchases in a category in which the merchant does not have a merchant code.
Purchases submitted by you, Additional Cardholders, or the merchant through third-party payment accounts, mobile or wireless
card readers, online or mobile digital wallets, or similar technology will not qualify in a rewards category if the technology is
not set up to process the purchase in that rewards category. Notwithstanding the foregoing, you will not receive or accrue
any Rewards Points for a billing cycle if, by the end of that cycle, the minimum payment due shown on the statement for the
immediately preceding billing cycle is not paid. Reward Points will be posted to your Account at the end of each billing cycle.
Reward Points can be redeemed only if, at the time of redemption, (i) your Account is open and in good standing, (ii) your
membership with FAIRWINDS Credit Union is in good standing, and (iii) you have no delinquent or charged off loans or lines of
credit with FAIRWINDS Credit Union. All Reward Points will be forfeited if your Account is closed or terminated for any reason by
you or us. We may change or terminate the Program at any time. When you use points to redeem for travel, each point is worth
$.0150 (one and a half cents), which means that 100 points equals $1.50 in redemption value. For example, 50,000 points are
worth $750 towards travel. The cost of travel is based on the rates and fares available through the rewards website and travel
center, and may not reflect all rates and fares that are available through other channels.
OTHER AGREEMENTS: All the terms and conditions of any other agreement between us and you and/or any other
institution that is part of a network of Automated Teller Machines (ATM) in which we participate, and any applicable rules and
regulations, also apply to use of the Card. In the event of a conflict between the terms of this agreement and the terms of other
agreement or sales, cash advance, credit or other slips you sign or receive, the terms of this agreement shall govern. There may
be minimum and/or maximum limits on the amount of a cash advance dispensed from electrical terminals which accept the
Card. All of the transactions made by electronic means are subject to verification by us. You agree that we do not waive our
rights under this agreement if we fail to assert them. The agreement binds and benefits us and our successors and assigns and
binds you, your estate and your personal representatives.
30.

31. INVALIDITY OF PROVISIONS AND CAPTIONS:If any provision of this Agreement is deemed invalid the rest of this
Agreement will remain in full force and effect. The paragraph headings are for convenience only and do not form a part of this
Agreement.

GOVERNING LAW AND VENUE: The terms and conditions of this Agreement are governed by and construed in accordance
with the laws of the State of Florida and any applicable Federal law. The venue for any legal action or claim you make against
the Credit Union will be Orange County, Florida.

32.

YOUR BILLING RIGHTS - KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What to do if you find a mistake on your statement.
If you think there is an error on your statement, write to us at:
FAIRWINDS Credit Union
Attn: Payment Services
3087 N. Alafaya Trail
Orlando, FL 32826
You may also contact us on the web: www.fairwinds.org
In your letter, give us the following information:
•
•
•

Account information: Your name and account number
Dollar amount: The dollar amount of the suspected error
Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why

Visa Signature Credit Card Agreement

CARD-3581/03232020

M-131513

Continued on page 6 

you believe it is a mistake.
You must contact us:
•
•

Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amo
you think is wrong.

You must notify us of any potential errors in writing or electronically. You may call us, but if you do we are not required to investigate
any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe th
bill is correct.

While we investigate whether or not there has been an error:
•
•
•
•

We cannot try to collect the amount in question, or report you as delinquent on that amount.
The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
1.
2.

If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe and the date payment is due. We may then report you as 		
delinquent if you do not pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse
to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your Credit Card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.

2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the 		
purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an 		
advertisement we mailed to you, or if we own the company that sold you the goods or services.)
You must have used your Credit Card for the purchase. Purchases made with cash advances from an ATM or with a check
that accesses your Credit Card account do not qualify.
You must not yet have fully paid for the purchase.

Visa Signature Credit Card Agreement

CARD-3581/03232020

M-131513

Continued on page 7 

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing or electronically at:
FAIRWINDS Credit Union
Attn: Payment Services
3087 N. Alafaya Trail
Orlando, FL 32826
www.fairwinds.org
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Visa Signature Credit Card Agreement

CARD-35814/03232020

M-131513

